No. 20-855
In the

Supreme Court of the United States
__________________
MARYLAND SHALL ISSUE, INC., ET AL.,
Petitioners,
v.
LAWRENCE HOGAN,
__________________

Respondent.

On Petition for Writ of Certiorari to the United
States Court of Appeals for the Fourth Circuit
__________________
BRIEF OF AMICI CURIAE DAVID CODREA,
SCOTT HEUMAN AND OWEN MONROE IN
SUPPORT OF PETITIONERS
__________________
ALAN ALEXANDER BECK
LAW OFFICE OF
ALEXANDER BECK
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com

STEPHEN D. STAMBOULIEH
Counsel of Record
STAMBOULIEH LAW, PLLC
P.O. Box 428
Olive Branch, MS 38654
(601) 852-3440
Stephen@sdslaw.us

Counsel for Amici Curiae
January 21, 2021
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
CORPORATE DISCLOSURE STATEMENT
The amici curiae are not corporations and thus they
have no parent corporations, and do not issue stock.

ii
TABLE OF CONTENTS
CORPORATE DISCLOSURE STATEMENT . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Maryland’s Law (and the ATF’s Final Rule)
Mandates Dispossession of Previously
Lawfully Owned Private Property . . . . . . . . . 3

II.

The Taking of This Property is a Cost for
Which They Should be Compensated . . . . . . . 4

III.

Equity Requires Prior Owners of Bumpstocks
and Rapid Fire Trigger Activators be Made
Whole . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

IV.

“Rapid Fire Trigger Activators” are not
Dangerous . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

iii
TABLE OF AUTHORITIES
Cases
District of Columbia v. Heller,
554 U.S. 570, 128 S. Ct. 2783 (2008) . . . . . . . . . . 9
Horne v. Dep’t of Agric.,
135 S. Ct. 2419 (2015). . . . . . . . . . . . . . . . . . . . . . 7
Loretto v. Teleprompter Manhattan CATV Corp.,
458 U.S. 419 (1982). . . . . . . . . . . . . . . . . . . . . . . . 4
Lucas v. South Carolina Coastal Council,
505 U.S. 1003 (1992). . . . . . . . . . . . . . . . . . . . . . . 4
Murr v. Wisconsin,
137 S. Ct. 1933 (2017). . . . . . . . . . . . . . . . . . . . 6, 8
Nixon v. United States,
978 F.2d 1269 (D.C. Cir. 1992). . . . . . . . . . . . . . . 4
Tahoe-Sierra Pres. Council, Inc. v. Tahoe Reg’l
Planning Agency, 535 U.S. 302 (2002) . . . . . . . . . 4
Regulations
83 Fed. Reg. 66514 (Dec. 26, 2018) . . . . . . . . . passim
Other Authorities
Executive Order, https://www.theverge.com/2020/
9/23/21452825/california-ban-combustion-gasvehicles-cars-2035. . . . . . . . . . . . . . . . . . . . . . . . . 7
https://www.cnn.com/2017/10/04/us/bump-stock-lasvegas-shooting/index.html . . . . . . . . . . . . . . . . . . 9

1
INTEREST OF THE AMICI CURIAE
David Codrea, Scott Heuman and Owen Monroe
owned bumpstocks.1 None of them live in Maryland or
were affected by Maryland’s ban on “rapid fire trigger
activators” as the Petitioners here, however, the
substance of the inequitable premise of taking
heretofore lawfully owned and acquired private
property for public use is present both in the Amici’s
federal case regarding bumpstocks and the instant case
regarding Petitioners’ “rapid fire trigger activators.”
In the Amici’s case, they relied on the Bureau of
Alcohol, Tobacco, Firearms and Explosives’ (“ATF”)
repeated approval and legality of so-called bumpstocktype devices. President Trump demanded the ATF ban
bumpstocks and the ATF did what was demanded of it.
So, despite the ten-plus years of approval, the ATF
reimagined and redefined terms in an unambiguous
criminal statute to outlaw bumpstocks under penalty
of prison, fines, and loss of Second Amendment rights.
Mr. Codrea, Mr. Heuman and Mr. Monroe had no
choice but to fight the ruling in the courts, but they
first had to relinquish possession of their private
property and received no compensation for the
government’s taking. As such, they have an interest in
the outcome of this case because a positive ruling in the
instant matter will assist them in their efforts to be

1

No counsel for any party authored this brief in whole or in part,
nor did any counsel or party make any monetary contribution
intended to fund the preparation or submission of this brief. All
parties’ counsel of record received timely notice of the intended
filing of this brief, and all consented to its filing.

2
compensated for the government’s illegitimate taking
of their bumpstocks.
SUMMARY OF THE ARGUMENT
Lawful prior owners of bumpstock-type devices and
“rapid fire trigger activators” should not be made to
bear all the public burdens of a taking. It is unfair,
inequitable, and it is wrong. No matter the public
policy arguments surrounding whether or not a
bumpstock ban (or in this case, a “rapid fire trigger
activator”) is good policy, banning them and mandating
surrender or destruction without compensation violates
our Constitutional protections against uncompensated
takings. Because the taking was for a public purpose
and dispossessed Petitioners (and with regards to
bumpstocks, Mr. Codrea, Mr. Heuman and Mr.
Monroe) of their lawfully owned and acquired property,
this Court should hold that this kind of action results
in a compensable taking.
This brief will be just that: brief. Mr. Codrea, Mr.
Heuman and Mr. Monroe write to ask this Court to
uphold all rights under our Constitution, not just the
favored rights. Notwithstanding that the subject
matter of this case elicits 180-degree reactions from
gun rights activists or gun control activists, the
Constitution must be upheld at the end of the day
without regard to the subjects at issue.

3
ARGUMENT
I.

MARYLAND’S LAW (AND THE ATF’S FINAL
R ULE ) M ANDATES D ISPOSSESSION OF
PREVIOUSLY LAWFULLY OWNED PRIVATE
PROPERTY.

There is no question that Maryland’s law
dispossesses prior lawful owners of private property.
Maryland’s law additionally “takes” this property
without any regard to compensating the owners for the
taking. The ATF’s Final Rule, published on December
26, 2018, banned bump stocks as machineguns in the
Federal Register. See 83 Fed. Reg. 66514 (Dec. 26,
2018) (“Final Rule”). The ATF’s Final Rule clearly
mandated that “[c]urrent possessors of bump-stocktype devices who properly destroy or abandon their
devices will avoid criminal liability.” 83 FR 66514,
66530. Like the Maryland law at issue, the Final Rule
offered no compensation to victims of the ATF’s
reinterpretation of the federal machinegun statute and
instead compelled dispossession by threat of fine,
prison time and criminal prosecution, which, in a case
of unlawful possession of a machinegun, is a felony.
In the case before this Court, Maryland just did it
faster and through legislation instead of regulatory
fiat. But in both the federal ban on bumpstocks and
Maryland’s ban on “rapid fire trigger activators”, one
thing remains the same: owners of previously lawful
firearm accessories will not receive any compensation
for the taking of their private property.

4
II.

THE TAKING OF THIS PROPERTY IS A COST FOR
WHICH THEY SHOULD BE COMPENSATED.

There can be no serious question Maryland’s law
(and the ATF Final Rule) are “takings” under this
Court’s precedent. There is no grandfather clause
either. As such, the law at issue and the ATF’s Final
Rule both ban continued possession of personal
property in which the owner has a vested interest and
is a per se Taking under the Takings Clause of the
Fifth Amendment, regardless of whether physical
possession of the property is assumed by the
government. Tahoe-Sierra Pres. Council, Inc. v. Tahoe
Reg’l Planning Agency, 535 U.S. 302, 324 n.19 (2002) (a
physical taking “dispossess[es] the owner” of property);
Nixon v. United States, 978 F.2d 1269, 1287 (D.C. Cir.
1992) (statute that “physically dispossessed” property
owner “resulted in” a per se taking).
Under the Takings Clause of the Fifth Amendment,
the government may not abrogate vested rights in
private property without compensation, even in the
exercise of its otherwise valid police powers. Lucas v.
South Carolina Coastal Council, 505 U.S. 1003, 1026
(1992) (“the legislature’s recitation of a noxious-use
justification cannot be the basis for departing from our
categorical rule that total regulatory takings must be
compensated. If it were, departure would virtually
always be allowed”); Loretto v. Teleprompter
Manhattan CATV Corp., 458 U.S. 419, 425 (1982)
(accepting the lower court’s holding that the regulation
at issue was “within the State’s police power,” but
holding that “[i]t is a separate question, however,

5
whether an otherwise valid regulation so frustrates
property rights that compensation must be paid”).
Mr. Codrea was forced to surrender an original
Akins Accelerator (with its spring removed so as to not
be considered a machinegun after the first time it was
declared a machinegun) which was still in its original
box and signed by the inventor of the device. Mr.
Codrea valued his original Akins Accelerator at a
minimum of “$1,100, up to a premium due to the chain
of ownership and rarity of the item, it would be
expected to sell for at least $2,000 to $3,000 at an
auction.” See First Amended Complaint at p.23, ¶91;
Codrea, et al. v. Bureau of Alcohol, Tobacco, Firearms
and Explosives, et al.; Civil Action No. 18-cv-3086DLF.2 Mr. Monroe’s and Mr. Heuman’s bumpstocks
are valued between “$200 to $400”. Id.
There are real costs associated with this taking.
The ATF admitted as such in the Final Rule:
ATF estimates the total undiscounted cost of
this rule at $312.1 million over 10 years. The
total 7% discount cost is estimated at $245.5
million, and the discounted costs would be $32.8
million and $35.0 million, annualized at 3% and
7% respectively. The estimate includes costs to

2

In terms of valuing Mr. Codrea’s Akins Accelerator, he required
the ATF agent to sign a Receipt for Property and Other Items
(ATF Form 3400.23) as his intent is to have his property returned
if and when the Final Rule is struck as violative of the
Constitution and/or Administrative Procedures Act. The value of
said device will continue to increase in value given the nature of it
and that it was the subject of federal court action.

6
the public for loss of property ($102.5 million);
costs of forgone future production and sales
($198.9 million); costs of disposal ($9.4 million);
and government costs ($1.3 million).
See 83 Fed. Reg. 66515. The ATF estimated that
$102.5 million dollars is attributable to this “loss of
property”. This large sum of money is only incurred by
those who owned bumpstocks, or in Maryland’s case,
only those who owned “rapid fire trigger activators”.
Those owners weren’t allowed to sell their property or
enjoy any of the benefits of continued possession.
Instead, the government mandated that lawful
continued ownership, sale or acquisition of popular
firearm accessories verboten and destroyed Petitioners’
bundle of rights in their property. This cannot stand.
This Court has previously stated that the “central
purpose of the Takings Clause [is]: to ‘bar Government
from forcing some people alone to bear public burdens
which, in all fairness and justice, should be borne by
the public as a whole.’” Murr v. Wisconsin, 137 S. Ct.
1933, 1950 (2017) (quoting Armstrong, 364 U. S., at 49,
80 S. Ct. 1563, 4 L. Ed. 2d 1554). That the property at
issue is a “rapid fire trigger activator” or a bumpstock
doesn’t matter, unless one must disavow constitutional
protections for property that is politically disfavored.
This Court should grant Petitioner’s Writ and correct
the Fourth Circuit’s erroneous holding.

7
III.

EQUITY REQUIRES PRIOR OWNERS OF
BUMPSTOCKS AND RAPID FIRE TRIGGER
ACTIVATORS BE MADE WHOLE.

Horne v. Dep’t of Agric., 135 S. Ct. 2419, 2426
(2015), holds that “[t]he Government has a categorical
duty to pay just compensation when it takes your car,
just as when it takes your home.” Yet the Fourth
Circuit held differently despite this Court’s holding in
Horne merely because the Maryland law at issue did
not mandate a surrender to a third party or that the
property was not physically turned over to the
government. This turns the takings doctrine on its
head and incentivizes states to “take” property that
they don’t like by mandating destruction of said
property instead of the government taking possession.
Taking that to its logical conclusion, the states could
get away with almost anything because they would not
be mandating surrender to a third party and the states
themselves wouldn’t take possession of said newly
banned property. For example, take this outlandish
hypothetical: a state could maneuver around Horne
simply by banning all internal combustion engines,
effective now, and mandate destruction of said
property.3 Since the vehicle containing the internal
combustion engine would not be turned over to a third
party or to the government, it could bypass this Court’s
explicit holding in Horne.

3

Perhaps this isn’t such an outlandish hypothetical given the
Governor of California’s recent Executive Order purporting to ban
new sales of internal combustion engines by 2035: https://www.th
everge.com/2020/9/23/21452825/california-ban-combustion-gasvehicles-cars-2035 (last accessed 1/13/2021).

8
Petitioners relied on the legality of their devices
when they acquired them. Just like Mr. Codrea, Mr.
Heuman and Mr. Monroe who relied on years and
years of approval from the ATF in stating that
bumpstocks were not machineguns and therefore not
illegal. As noted by ATF’s own admission, “rapid fire
trigger activator” owners nationwide spent substantial
real dollars on their firearm accessories. Petitioners,
just like Mr. Codrea, Mr. Heuman and Mr. Monroe, are
now forced to bear the entire burden of this new public
policy despite this Court’s holding in Murr. Because
Petitioners’ property was taken from them and they
were not given the economic benefit of their dollar, they
should be compensated for the taking.
IV.

“RAPID FIRE TRIGGER ACTIVATORS” ARE NOT
DANGEROUS.

The entire premise of the ban on “rapid fire trigger
activators” and bumpstocks is that bumpstocks were
used in a horrific crime in Las Vegas:4
On October 1, 2017, a shooter attacked a large
crowd attending an outdoor concert in Las
Vegas, Nevada. By using several AR-type rifles
with attached bump-stock-type devices, the
shooter was able to fire several hundred rounds

4

Of note, during a FOIA request regarding the Las Vegas incident,
a document was produced which stated that “[O]n-scene ATF
personnel were not allowed to physically examine the interior of
the weapons for machinegun fire-control components or known
machinegun conversion devices such as Drop-In-Auto Sears,
Lightning Links, etc.”

9
of ammunition in a short period of time, killing
58 people and wounding approximately 500.
See 83 Fed. Reg. 66516. But, if criminal misuse of a
firearm was the end which justified the means, then
District of Columbia v. Heller, 554 U.S. 570, 128 S. Ct.
2783 (2008) would have been decided the other way.
“Handguns also appear to be a very popular weapon
among criminals.” Heller, 554 U.S. at 698 (Breyer
Dissenting). The Heller majority rejected the dissent’s
position when it held that handguns were protected
under the Second Amendment.
Bumpstocks and rapid fire trigger activators, unlike
actual contraband, have lawful uses. Mr. Codrea, Mr.
Heuman andMr. Monroe did not use their bumpstocks
in crimes. There is no evidence that any of the
Petitioners used their “rapid fire trigger activators” in
crimes either.
The mere fact of ownership of
bumpstocks was not a crime until President Trump
ordered the ATF to make them machineguns and for
Maryland, not until the legislature banned “rapid fire
trigger activators”. Unlike, say, Schedule I narcotics
which have no approved uses and are contraband
because they have no lawful uses, bumpstocks have
(had) lawful uses. The device was originally created to
help people with disabilities bump-fire5 a rifle.6 To
make the point further, the intended use of a
bumpstock or rapid fire trigger activator is not to
5

Notwithstanding the ATF’s Final Rule declaring bumpstocks to
be machineguns, bump-firing a rifle is still legal. For now.
6

https://www.cnn.com/2017/10/04/us/bump-stock-las-vegas-shootin
g/index.html (last visited 1/13/2021).

10
murder or cause physical harms. It is to make bumpfiring a rifle easier for the shooter. Unlike cocaine or
heroin, of which the intended use would be to make the
user high and/or addicted to the substance, and which
are contraband because they have no lawful use,
bumpstocks don’t fit that mold. And unlike, say,
methamphetamine, the normal and intended use of a
bumpstock or rapid fire trigger activator will not
eventually kill the person using it.
As such, because both bumpstocks and rapid fire
trigger activators are mere firearm accessories and
have lawful, legitimate uses, they are not dangerous in
and of themselves.
CONCLUSION
This Court should grant Maryland Shall Issue’s
petition for a writ of certiorari.
Respectfully submitted,
ALAN ALEXANDER BECK
LAW OFFICE OF
ALEXANDER BECK
2692 Harcourt Drive
San Diego, CA 92123
(619) 905-9105
Alan.Alexander.Beck@gmail.com

STEPHEN D. STAMBOULIEH
Counsel of Record
STAMBOULIEH LAW, PLLC
P.O. Box 428
Olive Branch, MS 38654
(601) 852-3440
Stephen@sdslaw.us

Counsel for Amici Curiae

